                      UNITED STATES DEPARTMENT OF EDUCATION

                                   OFFICE OF INSPECTOR GENERAL

                                         61 FORSYTH STREET, ROOM 18T71 

                                             ATLANTA, GEORGIA 30303


       Telephone: (404) 562-6470                                            Fax: (404) 562-6509

                                         November 8, 2004

MEMORANDUM

TO:            Theresa S. Shaw
               Chief Operating Officer
               Federal Student Aid

FROM:          J. Wayne Bynum        J. Wayne Bynum
               Regional Inspector General for Audit
               Office of Inspector General

SUBJECT:       FINAL AUDIT REPORT
               Review of Student Enrollment, Professional Judgment Actions, and
               Dependency Overrides at Salem College
               Control No. ED-OIG/A04-E0003


You have been designated as the action official for the resolution of the finding and
recommendations in the attached final report. We also provided a copy to the auditee and to
your audit liaison officer.

The Office of Inspector General is required to review and approve your proposed Program
Determination Letter (PDL) and the Audit Clearance Document (ACD) before the PDL is
forwarded to the auditee. Our review of these documents will be handled through the
Department’s Audit Accountability and Resolution Tracking System (AARTS).

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

If you have any questions, please contact me at 404-562-6477 or Assistant Regional Inspector
General Mary Allen at 404-562-6465.


Enclosure
                        UNITED STATES DEPARTMENT OF EDUCATION

                                       OFFICE OF INSPECTOR GENERAL 

                                        61 Forsyth Street, Room 18T71 

                                            Atlanta, Georgia 30303


Telephone: (404) 562-6470                                                                             Fax: (404) 562-6509


                                            November 8, 2004


Dr. Julianne Still Thrift
President
Salem Academy and College
601 S. Church St.
Winston-Salem, NC 27108


Dear Dr. Thrift:

This Final Audit Report, Control Number A04-E0003, presents the results of our Review of
Student Enrollment, Professional Judgment Actions, and Dependency Overrides at Salem
College. Audit coverage included the period July 1, 2001, through June 30, 2003 (award years
2001-2002 and 2002-2003). Our objectives were to determine (1) whether Salem College
enrolled as regular students only individuals who have a high school certificate or its equivalent
or are beyond the age of compulsory school attendance and (2) whether Salem College’s use of
professional judgment and dependency override to make adjustments to estimated family
contribution calculations resulted in appropriate Federal Pell Grant Program (Pell) disbursements
to students.


                                            AUDIT RESULTS 


We did not identify any problems regarding (1) the enrollment as regular students only
individuals who have a high school certificate or its equivalent or are beyond the age of
compulsory school attendance or (2) the school’s use of dependency overrides. However, we did
determine that Salem College did not always maintain adequate supporting documentation for its
professional judgment determinations.

FINDING No. 1 -- Salem College Did Not Maintain Adequate Supporting Documentation
                 for Professional Judgment Actions

Salem College did not maintain adequate documentation to support all professional judgment
decisions. This occurred because Salem College did not always follow established policies and
procedures related to obtaining adequate documentation to support a student's claim of a special


     Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
circumstance as a means to being granted professional judgment. As a result, 12 students
received $26,400 in excessive Federal Pell Grant funds.

The Higher Education Act of 1965, as amended, Section 479A (1998) states:

     Nothing in this part shall be interpreted as limiting the authority of the financial 

     aid administrator, on the basis of adequate documentation, to make adjustments 

     on a case-by-case basis to the cost of attendance or the values of the data items 

     required to calculate the expected student or parent contribution (or both) to 

     allow for treatment of an individual eligible applicant with special

     circumstances. However, this authority shall not be construed to permit aid 

     administrators to deviate from the contributions expected in the absence of

     special circumstances . . . . Special circumstances shall be conditions that 

     differentiate an individual student from a class of students rather than conditions 

     that exist across a class of students. Adequate documentation for such 

     adjustments shall substantiate such special circumstances of individual students. 


Salem College used dependency override actions to amend the estimated family contribution for
two Pell Grant recipients during award year 2001-2002 and two Pell Grant recipients during
2002-2003. We reviewed the financial aid files for these four students and determined that there
was adequate documentation to support the students’ claim of a special circumstance. We also
determined that the special circumstance for the dependency override action was substantiated.

Salem College used professional judgment actions to amend the estimated family contribution
for 76 of its 351 Pell Grant recipients during award year 2001-2002 and 66 of its 356 Pell Grant
recipients during award year 2002-2003.

We reviewed the financial aid files for 64 randomly selected students who were coded as having
received professional judgment actions during award years 2001-2002 and 2002-2003. We
reviewed the files to determine if there was adequate documentation to substantiate the students’
claim of a special circumstance and of a case-by-case determination that the special circumstance
justified deviating from the expected family contribution. We found that the documentation in
the files was not adequate to support the professional judgment actions for 12 of the 64 students.
Eleven of these 12 student files contained a signed letter or special request form explaining the
special circumstance; however, the information provided did not substantiate the claimed special
circumstance. For example, the documentation for an individual who stated he lost his job
provided no information about where the individual worked. Another student file contained a
record of a telephone conversation that the Financial Aid Director had with someone concerning
the student's father's cutback in work hours; however, there was insufficient documentation to
substantiate the information. Tables 1.1 and 1.2 below provide additional information regarding
the results of our student file reviews.




ED-OIG/A04-E0003                        FINAL REPORT                            Page 2 of 12
Table 1.1 – Professional Judgment File Review for 2001-2002
                                                                         Adequate Support
 Reason for Professional Judgment Decision                   Students    Maintained in File
                                                                          YES        NO
 Excessive Medical/Miscellaneous Bills                          10          9         1
 Elimination of Child Support or Social Security Benefits        1          1         0
 Student/parent/spouse loss of job or reduction in income       23         18         5
    TOTAL                                                       34         28         6


Table 1.2 – Professional Judgment File Review for 2002-2003
                                                                          Adequate Support
 Reason for Professional Judgment Decision                    Students    Maintained in File
                                                                           YES       NO
 Excessive Medical/Miscellaneous Bills                            9          9         0
 Separation of parents                                            1          1         0
 Elimination of Child Support or Social Security Benefits         2          1         1
 Student/parent/spouse loss of job or reduction in income        18        13          5
    TOTAL                                                        30         24         6


In summary, Salem College did not maintain adequate supporting documentation for 12 of the 64
student files reviewed (19 percent). These 12 students received $36,050 in Pell Grant funds. As
a result of the unsupported professional judgment actions, the 12 students received $26,400 in
excessive Pell grant disbursements.

Salem College had written policies and procedures for granting professional judgment;
however, the policies and procedures were not consistently followed. Students who wished
to be considered for special circumstances were to submit a Special Circumstance or
Dependency Override Request form or a written request. The policy stated that appropriate
documentation, such as a letter of termination from a job or copies of medical bills not
covered by insurance, would help the Financial Aid Director in making a determination. The
policy also stated that the Financial Aid Director may request additional data depending on
the situation. If the special circumstance was approved, the Financial Aid Director adjusted
key data elements on the students’ Free Application for Federal Student Aid form (e.g.,
Adjusted Gross Income, number in household, number in college, etc.). The Financial Aid
Director wrote a brief explanation of the decision and signed and dated the form. The
Financial Aid Director also flagged the Financial Aid Administrator Adjustment field in
EDExpress to indicate the transaction was based on professional judgment, calculated a new
expected family contribution, reprocessed the aid, and mailed a new award letter to the
student.




ED-OIG/A04-E0003                      FINAL REPORT                          Page 3 of 12
RECOMMENDATIONS

We recommend that the Chief Operating Officer for Federal Student Aid require Salem College
to-

1.1 	 Maintain adequate supporting documentation that substantiates a student’s special
      circumstance and documents the reasons for the professional judgment actions.

1.2 	 Refund $26,400 in Pell Grant funds disbursed as a result of inadequately documented
      professional judgment actions.

1.3 	 Perform a 100 percent review of the professional judgment actions not included in our
      audit for award years 2001-2002 and 2002-2003 through the current period and refund any
      additional Pell Grants disbursed as a result of inadequate support for professional judgment
      actions granted. The Chief Operating Officer should require verification of this calculation
      by the appropriate Case Management Team.

SALEM COLLEGE RESPONSE

Salem College disagreed with the finding and recommendations (see attachment). The response
stated that the regulation and the Federal Student Aid Handbook does not define or give
examples of “adequate documentation.” The financial aid administrator has been given the
authority to make this decision under the realm of professional judgment. Minimal Federal
guidance concerning documentation requirements has resulted in many different interpretations
of the regulation. Schools such as Salem College act in good faith when interpreting the
regulations. Some students make projections of current year income, which is an estimate of
earnings. Such figures cannot be proven or verified until the tax year is completed. In 7 of the
12 cases cited in the report, Salem College’s professional judgment decisions were verified by
additional supporting documentation, which proved the judgments were correct. Salem College
disagreed with recommendation No. 1.2 to refund $26,400 in Pell Grant funds.

Federal financial aid applicants and parents (where applicable) must sign a certification
statement on the Free Application for Federal Student Aid (FAFSA) indicating that they can be
fined and/or sent to prison for giving false or misleading information. This certification holds
students and parents liable for the accuracy of the information provided in conjunction with the
financial aid application (i.e., FAFSA data, verification, professional judgment, etc.). Salem
College uses this certification as the basis for accepting professional judgment requests.

Recommendation No. 1.3 seeks 100 percent verification of the remaining professional judgment
decisions. Statistical sampling methods indicate that a 45 percent sample (64 of 142) has a
confidence level of 99 percent with a confidence interval of 12. Salem College disagrees with
the recommendation because a confidence level of 99 percent is extremely high.




ED-OIG/A04-E0003                       FINAL REPORT 	                         Page 4 of 12
OIG COMMENTS

Salem College’s comments did not lead us to change our finding. Section 479A of the Higher
Education Act of 1965, as amended, prescribes that adequate documentation must “substantiate”
the special circumstances of individual students. In our review, we looked for documentation to
“substantiate” the circumstances of the student that would allow a financial aid advisor, on a
case-by-case basis, to conclude that it was reasonable to “deviate from the contributions expected
in the absence of special circumstances.” For the 12 students in question, the notes and/or letters
describing the students’ special circumstance did not provide sufficient detail to substantiate the
students’ circumstances. None of the notes or letters regarding loss of income or job provided an
employer’s name, information on unemployment compensation, or prospects for additional
employment.

The FAFSA certification statement pertains to the information included in the FAFSA and
information that the student/parent will provide at a later date, if requested, to verify the accuracy
of the completed form. A new FAFSA is not prepared and signed to support a professional
judgment action. The FAFSA certification does not preclude the need to obtain adequate
documentation at the time a student requests a professional judgment action. The statute requires
financial aid administrators to maintain adequate documentation that substantiate the special
circumstances of the student. In addition, as evident with the verification process that the
Department uses to verify FAFSA information, the Department does not exclusively rely on the
FAFSA certification statement.

Nineteen percent (12 of 64) of the professional judgment actions that we reviewed were not
substantiated by supporting documentation. Therefore, it is probable that 27 professional
judgment decisions are not substantiated by documentation (0.19 x 142 professional judgment
decisions). Therefore, we recommend that the remaining 78 professional judgment decisions
(142 decisions less 64 decisions reviewed by OIG) be reviewed to determine if additional Pell
Grants were disbursed without adequate support for the professional judgment actions granted.


                                      BACKGROUND 


Salem College, the 13th oldest college in the Nation, is located in Winston-Salem, North
Carolina. The Moravians started the school in 1772 as a school for girls. In 1890 it became
Salem College (Salem Academy and College). The 57-acre campus is shared with the Academy
(a college/preparatory boarding school for girls in grades 9-12).

Salem College is a private, non-profit, Liberal Arts College for women, accredited by the
Southern Association of Colleges and Schools, the National Association of Schools of Music,
and the North Carolina Board of Education. Salem College offers degree programs to
undergraduate students and graduate students, and it also offers a Continuing Studies program
and Pre-professional programs.




ED-OIG/A04-E0003                         FINAL REPORT                            Page 5 of 12
Enrollment at Salem College is approximately 1,027 students. Tuition is currently $15,500 and
room and board is $8,870. Approximately 70 percent of the institution's students receive
financial aid from programs such as Federal Supplemental Educational Opportunity Grants
(FSEOG), Federal Work Study (FWS), Federal Pell Grants (Pell), and Federal Family Education
Loans (FFEL). Salem College received Title IV funding totaling $3,693,482 during award year
2001-2002 and $3,675,401 during award year 2002-2003. The table below provides a
breakdown of Title IV funds received by program.

    Award Year         PELL       FSEOG      FWS                   FFEL          Total
     2001-2002           $774,161    $69,000  $74,221             $2,776,100        $3,693,482
     2002-2003          $895,799         $94,044      $94,699     $2,590,859         $3,675,401
  Total by Program     $1,669,960       $163,044     $168,920     $5,366,959         $7,368,883




               OBJECTIVES, SCOPE, AND METHODOLOGY 


Our audit objectives were to determine (1) whether Salem College enrolled as regular students
only individuals who have a high school certificate or its equivalent or are beyond the age of
compulsory school attendance and (2) whether Salem College’s use of professional judgment
and dependency override to make adjustments to the estimated family contribution calculations
resulted in appropriate Pell Grant disbursements to students. The scope of our audit included
award years 2001-2002 and 2002-2003.

To evaluate institutional eligibility regarding the enrollment of high school students we-

• 	 Reviewed the Higher Education Act of 1965, as amended, and applicable Title IV
    regulations.
• 	 Reviewed the academic files for selected high school students.
• 	 Reviewed State law regarding the age of compulsory school attendance
• 	 Reviewed Salem College’s policies and procedures regarding the enrollment of high school
    students.
• 	 Reviewed a written agreement between Salem College and a local school board for the
    enrollment of high school students.
• 	 Interviewed Salem College officials.

We reviewed the files for the 35 high school students that Salem College identified as being
enrolled at Salem College during the audit period.

To evaluate Salem College’s use of professional judgment and dependency override actions we-

• 	 Reviewed financial aid files, student ledger cards, and other supporting documentation
    relating to professional judgment and dependency override.



ED-OIG/A04-E0003                        FINAL REPORT 	                         Page 6 of 12
• 	 Reviewed Title IV of the Higher Education Act of 1965, as amended (particularly Sections
    479A and 480(d)).
• 	 Reviewed Salem College’s OMB Circular A-133 audit reports for the years ended 2002 and
    2003.
• 	 Reviewed disbursement data, application records, and other student related data from the
    Department’s National Student Loan Data System (NSLDS) and the Computer Science
    Corporation.
• 	 Reviewed Salem College’s drawdown and disbursement data using the Department’s Grants
    Payment Administration System (GAPS) and Postsecondary Education Participants System
    (PEPS).
• 	 Interviewed Salem College officials involved in professional judgment and dependency
    override actions.

To evaluate the adequacy of documentation maintained to support professional judgment actions,
we reviewed a random sample of students who received Pell Grant awards and whose Student
Aid Report (SAR)/Institutional Student Information Record (ISIR) reported comment code 027
(estimated family contribution adjustment). This code indicates that professional judgment had
been applied. We identified a universe of 351 and 356 students who received Pell Grant funds
during award years 2001-2002 and 2002-2003, respectively. Salem College reported
professional judgment decisions for 76 of the 351 Pell recipients in award year 2001-2002 and
66 of the 356 Pell recipients in award year 2002-2003. Total Pell Grant awards distributed to the
students who received professional judgment actions was $167,338 for award year 2001-2002
and $167,950 for award year 2002-2003. To evaluate Salem College’s use of professional
judgment actions, we selected a random sample of 34 student files from award year 2001-2002
and 30 student files from award year 2002-2003 for review. Total Pell Grant awards distributed
to the sampled students was $81,350 for award year 2001-2002 and $81,050 for award year
2002-2003.

To evaluate the adequacy of documentation maintained to support dependency override actions,
we reviewed the universe of students who received Pell Grant awards and whose SAR/ISIR
reported comment code 164 (dependency override). This code indicates that a dependency
override had been applied. We found that four students received Pell Grant funds and
dependency overrides during award years 2001-2002 and 2002-2003 (two in each award year).
Total Pell Grant awards distributed to the students who received dependency override actions
was $7,500 for award year 2001-2002 and $5,525 for award year 2002-2003. We reviewed all
four dependency override actions.

To evaluate the risk that professional judgment or dependency overrides were used, but not
reported, we selected a random sample of students who received Pell Grant awards during the
audit period and whose SAR/ISIR did not report the use of professional judgment or dependency
override (i.e., no comment code 027 or 164). We identified a universe of 275 students in award
year 2001-2002 and 290 students in award year 2002-2003 whose SARs/ISIRs were not coded as
receiving professional judgment or dependency override. We selected a random sample of 33
students from award year 2001-2002 and 35 students from award year 2002-2003 for review.




ED-OIG/A04-E0003                       FINAL REPORT 	                        Page 7 of 12
During the audit, we relied in part on computer-processed data contained in Salem College’s
financial aid processing and disbursement systems. We tested the accuracy and completeness of
the data by comparing Salem College’s records to source documents and the data in the
Department’s systems. Based on these tests and assessments, we concluded that the data was
sufficiently reliable for use in meeting the audit objectives.

We conducted our audit work during the period March through May 2004, and held an exit
conference with Salem College on August 5, 2004. Our audit was performed in accordance with
generally accepted government auditing standards appropriate to the scope of the review
described above.


                  STATEMENT ON INTERNAL CONTROLS 


We did not assess Salem College’s internal control structure applicable to its institutional
eligibility for participation in Title IV programs because it was not necessary to achieve our
objective related to institutional eligibility.

As part of our audit, we gained an understanding of the controls over professional judgment and
dependency override determinations. We did not assess the adequacy of the control structure
applicable to the College’s use of professional judgment and dependency overrides to determine
the nature, extent, and timing of our testing. Instead, we relied on substantive testing of financial
aid and accounting records. Our review of student files disclosed noncompliance with
requirements for professional judgment that led us to believe material weaknesses existed in the
College's controls over professional judgment. These weaknesses and their effects are fully
discussed in the AUDIT RESULTS section of this report.


                           ADMINISTRATIVE MATTERS 


If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

               Theresa S. Shaw 

               Chief Operating Officer, Federal Student Aid 

               U.S. Department of Education         

               Union Center Plaza 

               830 First Street, NE, Room 112G1 

               Washington, DC 20202 





ED-OIG/A04-E0003                        FINAL REPORT                            Page 8 of 12
It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

If you have any questions, please call me at 404-562-6477 or Assistant Regional Inspector
General Mary Allen at 404-562-6465.

                                             Sincerely,

                                             J. Wayne Bynum

                                             J. Wayne Bynum
                                             Regional Inspector General




ED-OIG/A04-E0003                       FINAL REPORT                           Page 9 of 12
ATTACHMENT – WRITTEN RESPONSE TO THE DRAFT REPORT 




                                              ~
                                              SALEM
                                              " ( " 'HOlY .. NO ( O l l E e !

                                                  OjfIu of rbe l'nslJ~",
                                       W"' .. on-&. I"m. North C-'1mji"" 2?1M-M48
                                            )W72 I .2~      f ax; .n6l721.2832




                                                                  Octob<.,''I" 19,2004




        Mr. J. Wayne Bynum
        Regional Inspector General roc Audit
        Unih:d Stales Dcpactmcnt ofEducalion
        61 Fonlyth St., Room lf1T'1
        Atlanta, GA 30303

        Dear Mr. Bynum:

                This letter is in response to your draft audit report dated August 19,2004, c<mce:m.ing the
        results of~ongoing review at Salem College. f:'.ndoscd you will find a detailed respoosc
        from our Director offo'inaneial Aid, Julie Set7-1!'r.

                ShouId)'Qu have furtllt:r qu(:S(ions, yo u may contact M~. Sctzcr at (336) 917-5577 01'"
        setm@saJem.edu.

                Thank)'OO for your oonsidcration.



                                                                  Sincerely,



                                                                 0±~~r
                                                                  President

        JST/wnn




ED-OIG/A04-E0003                                    FINAL REPORT                                           Page 10 of 12 

ATTACHMENT – WRITTEN RESPONSE TO THE DRAFT REPORT 




                                            ---..JA,-_
                                            SALEM
                                            COLLEGE
                                                      ' .0 . 1;10%   1 ~1.8
                                         Wiflst~'m.   Nun b Corolin>. 271~48
                                              ~21 .lllO8 f:u , }fi911·~'5&f

       October 19.2004

       Mr_ J. Wayne l3ynum
       Regionallnspcclor General for Audit
       Unitod States Department ofEdllCation
       6 1 Forsyth St. , Room 18T7 1
       Atlanta. GA 30303

        Dear Mr. Bynum:

       This Idler is in response 10 your draft audit report daled Augusl 19, 2004, (;(Inceming the resul ts
       of your ongoing review a.l Salem College. Our institution docs nol concur w ith the fi nd ing IlOted
       on page 2 and recomJJ1Clldations 2 and 3 made on page 4.

       1be Higlta E4uClltillfl Ad (As Aml':/ftled Through Oc:tuber 2002) slates that:

                       "Sec:. 479A(a) IN GENERAL-- Nothing in thi s part shall be interpreted as
                       !imi.;ng .he ....,thority of the financ ial aid ;ulministr:<to<-. on the bllllis of .adequate
                       documentation, to lDIIke adjustments on a c.ase-by~ase bllllis to the cost of
                       attendance« the vaJ ucs of the data i!ems required to cakulatc the expoctoo
                       student 01" parenl contribution (Of" both) to allow fortn:a1rnCflI of an individual
                       eligible applicant with special circumstanccs.            ••

       We disagree with the finding li sted on !Hose 2 of the report. In our review of the 12 stOOal ts in
       question, we maintain thai our decis ions were oom:d for each litudal t, and we stand behind
       them . The l"Cgu lati(>D docs n()t define or give exampl es of "adequate d (>cumentalioo," tlOI'" d<.le5
       the Fe/ural Studen.l Aid f{m.tibooA:.. l1H: fina nc ial aid administrator h"" bt:cn giV''-11 the authority
       10 make this decision UDder the reabn of professional judgment. 1n fact, the regulation has no
       requirement to even coll ect written or signed state ment!; from parent!; and/or students. Minimal
       F......it:rnl guidance oonct:ming documentation requ in.:m(."!lls hIlS resulted in many different
       intcrprciaJjons of the rllgulation . Sc;hooL. such as Salem College act in good faith when
       intcIprcting the regulations in order to make the right da:isions fortbe unfortunate $Iudellts who
       find themse lves in ~ed o f additional assistance. Some of these students make projectioru; o f
       current year income:. whieh is an estimate or earnings . These figu res cannot be proven or
       veri fied lUlli] the w year is completed. In 70rthe 12 cases, o ur profcssionaljudgmcnt decisions
       were verified by additional supporting information which proved our judgments were correct.
       On thi s basis, we disagroe with recommendati on #2. which socks to have Salem College re fund
       $26,400 in Federal PeU Grant funds as a result of the audit. Pl ease note additional supporting
       information ( see croclosurcs).




ED-OIG/A04-E0003                                    FINAL REPORT                                                 Page 11 of 12 

ATTACHMENT – WRITTEN RESPONSE TO THE DRAFT REPORT 





                                                                                                     Pa ge 2

        Federal financial aid applicants amI parerlts (where applicable) mu.d sign 3 a'11.ification
        statement on the Frcc Applic:nion for FcdcrlIl Stud cnt Aid (FAl''SA) indicating ..... If you
        purposely live ra~ or misleadiog iafOf"lllltiOD, yon !D2y be fined 5211,000, sent to prison, or
        botll," This certification holds &tudenlli and/or parents liabk: fIK Itt<: alXlmlCy ofthc information
        provided in COIljunclion with the filUUlCial aid application (ie. FAFSA data, verification.
        professionalj udgrn ...n t, ele.). Sak.Tf1 College oses tlli", certification, as do mil.Ily other
        institutions, as the basis lOr accepting professional judg/Twnt requcsts. Booausc Fcd~ral guil1an~c
        for profC$ional judgment decision,. and documentation is minimal, schools rely on the
        certificatiun &tatemcut to lvald students and parents =untable for requats th ey submit.

        ReootnlJ}CJl(\ation #3 seeks 100';' verifICation oftht: remaining professionaljudgmcnl dc.;isioRS.
        Using the population (N= 142) and sample ",izcs (n=64) ofthc Salem College audit, statistical
        sampling methods indicate that,1. 45% sample has a OOClfidcnce level of 99% with,1. confidence
        interval of 12. We disagree with this recommendation bcx;ausc a confJdenee level ofCJ9D;' is
        ell.tJemel y high.

        We respectfully as\; fOf roconsideratiun of your report.


        Sincerely,

       Ou',dJdg­
        ~;-~r
        DircctororFinancial Aid

        e: Dr. JuliaJJJlc Still Thrift

        Enclosures




ED-OIG/A04-E0003                                 FINAL REPORT                                           Page 12 of 12 

